Case: 20-40097

Document: 00515531583

Page: 1

Date Filed: 08/18/2020

United States Court of Appeals
for the Fifth Circuit

United States Court of Appeals
Fifth Circuit

FILED
August 18, 2020

No. 20-40097
Summary Calendar

Lyle W. Cayce
Clerk

United States of America,
Plaintiff—Appellee,
versus
Alfonso Lopez-Rodriguez,
Defendant—Appellant.
Appeal from the United States District Court
for the Southern District of Texas
USDC No. 1:19-CR-897-1
Before Jolly, Elrod, and Graves, Circuit Judges.
Per Curiam:*
Alfonso Lopez-Rodriguez appeals his conviction and sentence for
illegal reentry after deportation, pursuant to 8 U.S.C. § 1326(b)(2). For the
first time on appeal, Lopez-Rodriguez argues that the district court
committed plain error by convicting, sentencing, and entering judgment

*

Pursuant to 5TH CIR. R. 47.5, the court has determined that this opinion should
not be published and is not precedent except under the limited circumstances set forth in
5TH CIR. R. 47.5.4.

23

Appendix

Case: 20-40097

Document: 00515531583

Page: 2

Date Filed: 08/18/2020

under § 1326(b)(2). He contends that the Texas offense of aggravated
robbery is not an aggravated felony for purposes of § 1326(b)(2) because the
offense can be committed with a mens rea of recklessness. Lopez-Rodriguez
concedes that this issue is foreclosed by circuit precedent but raises it to
preserve for further possible review.
The Government has filed an unopposed motion for summary
affirmance, asserting that the issue is foreclosed by United States v. TzacirGarcia, 928 F.3d 448, 450 (5th Cir. 2019), and United States v. PlazaMontecillo, 772 F. App’x 84, 85 (5th Cir.), cert. denied, 140 S. Ct. 391 (2019).
Alternatively, the Government moves for an extension of time to file its brief.
Because the only issue on appeal is foreclosed, see Tzacir-Garcia, 928
F.3d at 450, summary affirmance is appropriate, see Groendyke Transp., Inc.
v. Davis, 406 F.2d 1158, 1162 (5th Cir. 1969).

Accordingly, the

Government’s motion for summary affirmance is GRANTED, the
Government’s alternative motion for an extension of time to file a brief is
DENIED, and the judgment of the district court is AFFIRMED.

24

